BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1755
DEANHOTOP, ETAL.,

Petitioners,
v.

CITY OF SANJOSE, CALIFORNIA,

Respondent.
As required by Supreme Court Rule 33.l(h), I
certify that the Brief of Amicus Curiae Apartment
Association of Los Angeles County, Inc. DBA
Apartment Association of Greater Los Angeles in
Support of Petitioners contains 4,464 words, excluding
the parts of the Brief that are exempted by Supreme
Court Rule 33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on July 14, 2021.

Amy~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said
Affiant on the date designated below.

[seal]

